No. _______

In The

Supreme Court of the United States
HAROLD WADE AND LORRAINE WADE,
Petitioners,

v.
KREISLER LAW, P.C.,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

APPENDIX

Michael A. Miller
Counsel of Record
T HE SEMRAD LAW FIRM
20 South Clark, 28th Floor
Chicago, IL 60603
(312) 256-8728
mmiller@semradlaw.com
Counsel for Petitioners
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the
Seventh Circuit
(June 14, 2019) ............................. App. 1
Appendix B Memorandum Opinion and Order and
Judgment in the Bankruptcy Court,
United States District Court, Northern
District of Illinois, Eastern Division
(June 6, 2018) ............................. App. 12
Appendix C Fed. R. Bankr. P. 8006(g) .......... App. 24
Fed. R. App. P. 5 ......................... App. 24
Appendix D Notice of Appeal in the U.S. Bankruptcy
Court, Northern District of Illinois,
Eastern Division
(June 11, 2018) ........................... App. 28
Appendix E Bankruptcy Court’s Certification of
Direct Appeal to Seventh Circuit in the
U.S. Bankruptcy Court, Northern
District of Illinois, Eastern Division
(July 2, 2018) .............................. App. 30
Appendix F Order for Appellee Kreisler Law P.C. to
Respond to Order of Appeal in the
United States Court of Appeals for the
Seventh Circuit
(July 25, 2018) ............................ App. 36

ii
Appendix G Order Provisionally Accepting Appeal
and for Further Briefing on Jurisdiction
in the United States Court of Appeals
for the Seventh Circuit
(August 17, 2018) ....................... App. 38

App. 1

__________
APPENDIX A
__________
IN THE UNITED STATES COURT OF
APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-2564
[Filed June 14, 2019]
_____________________________________
HAROLD WADE AND LORRAINE WADE, )
Debtors-Appellants,
)
)
v.
)
)
KREISLER LAW P.C.,
)
Creditor-Appellee.
)
)
__________________________________________ )
Appeal from the United States Bankruptcy Court for
the Northern District of Illinois, Eastern Division.
No. 15-bk-01035 — LaShonda A. Hunt, Bankruptcy
Judge.
ARGUED FEBRUARY 6, 2019 — DECIDED JUNE
14, 2019
Before KANNE, SYKES, and HAMILTON, Circuit
Judges.
SYKES, Circuit Judge. Debtors Harold and
Lorraine Wade moved for sanctions against Kreisler

App. 2
Law, P.C., alleging that the law firm violated the
automatic stay arising from their bankruptcy
petition by filing a lien against Lorraine’s home. The
couple had voluntarily dismissed a prior bankruptcy
petition just a few months earlier, so the bankruptcy
judge denied their motion based on 11 U.S.C. §
362(c)(3), which lifts the automatic stay after 30 days
in the case of a successive petition. But the
bankruptcy courts are divided over the proper
interpretation of § 362(c)(3), so the judge certified
her order for direct appeal to this court under 28
U.S.C. § 158(d)(2)(A). A timely notice of appeal
followed.
But the Wades never filed a petition for
permission to appeal as required by Rule 8006(g) of
the Federal Rules of Bankruptcy Procedure. Kreisler
moved to dismiss the appeal based on this omission.
We provisionally accepted the appeal and directed
the parties to address the effect of the procedural
violation in their merits briefs.
We now dismiss the appeal. Rule 8006(g) is a
mandatory claim-processing rule, and if properly
invoked, it must be enforced. See Hamer v.
Neighborhood Hous. Servs. of Chi., 138 S. Ct. 13, 17
(2017). Because Kreisler properly objected, the
appeal must be dismissed.
I. Background
The Wades filed a Chapter 13 bankruptcy petition
in January 2015, which automatically stayed any
collection actions against their property. See 11
U.S.C. § 362(a). But the petition was successive—
they had voluntarily dismissed a different petition
two months earlier—and § 362(c)(3) states that if a
prior petition “was pending within the preceding 1-

App. 3
year period but was dismissed,” the automatic stay
“shall terminate with respect to the debtor on the
30th day after the filing of the later case.”
Just how much of the stay was lifted became
relevant after the Wades discovered that Kreisler
recorded a lien against Lorraine’s home in April
2015. Because their bankruptcy case was active at
that time, the Wades moved in the bankruptcy court
to sanction Kreisler for violating the stay.
The parties disagreed about the meaning of §
362(c)(3). Kreisler contended that it lifts the entire
stay. The Wades argued that the phrase “with
respect to the debtor” limits the statute’s effect so
that it lifts the stay only for non-estate property. In
their view the stay still prevented Kreisler from
recording the lien because Lorraine’s house was
estate property.
The bankruptcy judge denied the Wades’ motion,
concluding that the entire stay lifted in February
2015, which validated Kreisler’s April 2015 lien. The
Wades appealed to the district court. But they also
asked the bankruptcy judge to certify her order for
direct appeal to this court under § 158(d)(2)(A). The
judge granted that request and issued a certification
order. The Wades then filed a notice of appeal, but
they never filed a petition for permission to appeal as
required by Rule 8006(g) of the Federal Rules of
Bankruptcy Procedure. Kreisler moved to dismiss
based on this procedural oversight. We provisionally
accepted the appeal but instructed the parties to
brief the dismissal motion with the merits.

App. 4
II. Discussion
We begin (and end) with the question whether the
failure to file a petition for permission to appeal
requires dismissal of this appeal. We are permitted
to consider a direct appeal from an order of the
bankruptcy court if the bankruptcy judge certifies
the order for appeal and we “authorize[] the direct
appeal.” 28 U.S.C. § 158(d)(2)(A). The Federal Rules
of Bankruptcy and Appellate Procedure jointly set
forth the procedural steps to obtain authorization for
a direct appeal.
As relevant here, Bankruptcy Rule 8006(g)
mandates that “[w]ithin 30 days after the
[bankruptcy court’s] certification becomes effective …
, a request for permission to take a direct appeal to
the court of appeals must be filed with the circuit
clerk.” Ignoring this rule short-circuits our approval
process, which is detailed in Rule 5 of the Federal
Rules of Appellate Procedure. Rule 5 states that “[t]o
request permission to appeal … , a party must file a
petition for permission to appeal.” FED. R. APP. P.
5(a)(1). Rule 5(b)(1) specifies the required contents of
the petition, which include a statement of “the
reasons why the appeal should be allowed and is
authorized by a statute or rule.” Rule 5(b)(2) provides
a tenday window for other parties to oppose the
petition or file a cross-petition. Whether opposed or
not, under Rule 5(b)(3) the petition for leave to
appeal is decided “without oral argument unless the
court of appeals orders otherwise.”
Because Rule 8006(g) is a “time limitation …
found in a procedural rule, not a statute, it is
properly classified as a nonjurisdictional claim-

App. 5
processing rule.” Nutraceutical Corp. v. Lambert, 139
S. Ct. 710, 714 (2019). The question here is whether
Rule 8006(g) is a “mandatory” claim-processing rule,
which “[i]f properly invoked … must be enforced.”
Hamer, 138 S. Ct. at 7.
The Supreme Court’s recent decision in
Nutraceutical Corp. is instructive on this point.
There the Supreme Court considered Rule 23(f) of
the Federal Rules of Civil Procedure, which permits
an interlocutory appeal of a class certification order
if the appellant files a petition for permission to
appeal “within 14 days after the order is entered.”
The Court held that Rule 23(f) is a nonjurisdicitonal
mandatory claim processing rule, noting that “the
Federal Rules of Appellate Procedure single out Civil
Rule 23(f) for inflexible treatment,” Nutraceutical,
139 S. Ct. at 715, because Rule 26(b)(1) bars courts
from “extend[ing] the time to file … a petition for
permission to appeal,” FED. R. APP. P. 26(b).
That reasoning applies with equal force here.
Like Rule 23(f), Rule 8006(g) speaks in mandatory
terms. See FED. R. BANKR. P. 8006(g) (petition
“must be filed” before the deadline). And like Rule
23(f), Rule 8006(g) requires a petition for permission
to appeal, so Rule 26(b)(1) “singles [it] out … for
inflexible treatment.” Nutraceutical Corp., 139 S. Ct.
at 715. Rule 8006(g) is thus a mandatory claimprocessing rule. Because Kreisler properly invoked
the rule, it “must be enforced.” Hamer, 138 S. Ct. at
17.
In response the Wades rely on the lead opinion in
In re Turner, 574 F.3d 349 (7th Cir. 2009), and our
decision in Marshall v. Blake, 885 F.3d 1065 (7th
Cir. 2018). In both cases the appellants obtained

App. 6
certification from the bankruptcy court for a direct
appeal but failed to file a petition for permission to
appeal as required by the Bankruptcy and Appellate
Rules. In both cases we declined to dismiss the
appeal, but the decisions rested on slightly different
grounds.
The lead opinion in Turner, representing only the
author’s views, concluded that the record
transmitted from the bankruptcy court contained the
information that a petition for leave to appeal would
have provided. See 574 F.3d at 352 (Posner, J.).
Invoking the Supreme Court’s decision in Torres v.
Oakland Scavenger Co., the lead opinion concluded
that the record sent by the bankruptcy court brought
the case within the principle that “if a litigant
files papers in a fashion that is technically at
variance with the letter of a procedural rule, a
court may nonetheless find that the litigant
has complied with the rule if the litigant’s
action is the functional equivalent of what the
rule requires.”
Id. (quoting Torres v. Oakland Scavenger Co., 487
U.S. 312, 316– 17 (1988)). In the lead opinion’s view,
dismissal was unwarranted because treating the
bankruptcy-court
record
as
the
“functional
equivalent” of a petition would not prejudice the
appellee. Id.; see also id. at 356 (Van Bokkelen, J.,
concurring in the judgment).
In Marshall we dropped any reliance on
functional equivalence and instead emphasized
Turner’s discussion of harmlessness. See 885 F.3d at
1073 (“[W]e have excused the failure to file a Rule 5

App. 7
petition if the party filed a timely notice of appeal
and ‘no one is harmed by the failure.’” (quoting
Turner, 574 F.3d at 354)). Marshall found that the
failure to comply with Rule 8006(g) was harmless in
that case.
Turner was decided before Hamer clarified the
effect of mandatory claim-processing rules. The lead
opinion presumed that as long as a rule is not
jurisdictional, courts could create equitable
exceptions. See 574 F.3d at 354 (“[T]he failure to
comply with a rule that is not jurisdictional … is not
fatal if no one is harmed by the failure … .”). And
Marshall postdates Hamer but does not mention the
case. There the litigants framed the Rule 8006(g)
objection in jurisdictional terms, and our opinion
treated the issue accordingly, concluding that “we
have jurisdiction to hear the direct appeal” after
rejecting the appellee’s Rule 8006(g) objection.
Marshall, 885 F.3d at 1074.
Marshall and Turner are irreconcilable with the
Supreme Court’s recent decisions on the effect of
noncompliance with mandatory claim-processing
rules. Marshall’s harmless-error analysis cannot
coexist with the Court’s decision in Manrique v.
United States, 137 S. Ct. 1266, 1274 (2017), which
held that “mandatory claim-processing rules … are
not subject to harmless-error analysis.” More
broadly, the Court’s recent decisions in this area
have consistently compelled enforcement of
mandatory claim-processing rules. See, e.g.,
Nutraceutical Corp., 139 S. Ct. at 714 (stating that
mandatory claim-processing rules are “unalterable”);
Hamer, 138 S. Ct. at 17 (stating that mandatory
claim-processing rules “must be enforced”);

App. 8
Manrique, 137 S. Ct. at 1272 (“[T]he court’s duty to
dismiss the appeal was mandatory.”) (quotation
marks omitted). Adopting a harmless-error
exception, as Marshall did, necessarily alters an
“unalterable” claim-processing rule.
The approach of Turner’s lead opinion is also
unsustainable in light of the Court’s recent cases.
The Wades note that Torres remains on the books.
True, but we’re not persuaded that we may accept
the bankruptcy court’s certification order as the
functional equivalent of a petition for permission to
appeal.
To start, it’s unclear if Torres itself ever extended
that far. See 487 U.S. at 315–16 (“Permitting
imperfect but substantial compliance with a
technical requirement is not the same as waiving the
requirement altogether … .”). Regardless, the Court
has now clearly rejected the reasoning of the lead
opinion in Turner. In Manrique a criminal defendant
failed to file a second notice of appeal after the lower
court issued an amended judgment, as Rule 4 of the
Federal Rules of Criminal Procedure requires. The
dissent reasoned that “the clerk’s transmission of the
amended judgment to the Court of Appeals [was] an
adequate substitute for a second notice of appeal.”
Manrique, 137 S. Ct. at 1275 (Ginsburg, J.,
dissenting). But the Court didn’t agree. It treated
Rule 4 as a mandatory claim-processing rule and
held that the court of appeals “may not overlook the
failure to file a notice of appeal at all.” Id. at 1274
(majority opinion). Because that omission ran afoul
of Rule 4, the appeal had to be dismissed. Id.
The same result is required here. We cannot
overlook the Wades’ failure to file a petition for

App. 9
permission to appeal. Because Kreisler properly
objected to the violation of Rule 8006(g), our “duty to
dismiss the appeal [is] mandatory.” Id. at 1272
(quotation marks omitted). Based on the clear
conflict with Nutraceutical Corp., Hamer, and
Manrique, we overrule Turner and Marshall to the
extent that they approved exceptions to compliance
with Bankruptcy Rule 8006(g) and Rule 5(a)(1) of the
Federal Rules of Appellate Procedure—whether
based on the functional equivalence doctrine, the
harmless-error doctrine, or both.1 The Wades must
pursue their appeal through the ordinary process,
which starts with the district court. APPEAL
DISMISSED.

Because this opinion overrules circuit precedent, we circulated
it to all judges in active service. See 7TH CIR. R. 40(e). No judge
favored rehearing en banc.
1

App. 10
IN THE UNITED STATES COURT OF
APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-2564
[Filed June 14, 2019]
Everett McKinley Dirksen United States Courthouse
Room 2722 – 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov
June 14, 2019
Before:

FINAL JUDGMENT

MICHAEL S. KANNE, Circuit Judge
DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge

__________________________________________
HAROLD WADE AND LORRAINE WADE )
Debtors – Appellants
)
)
v.
)
)
KREISLER LAW P.C.
)
Creditor – Appellee
)
__________________________________________)

App. 11
Originating Case Information:
Bankruptcy Case No: 15-01035
Northern District of Illinois, Eastern Division-BK
Bankruptcy Judge LaShonda A. Hunt
The APPEAL is DISMISSED, with costs, in
accordance with the decision of this court entered on
this date.

App. 12

__________
APPENDIX B
__________
Name of Assigned Judge: Lashonda A. Hunt
Case No. 15BK01035
DATE
June 6, 2018
Case Title In re Harold and Lorraine Wade
Title of Order Order Confirming Termination of
Stay and Denying Sanctions
Docket Entry Text Order Confirming
Termination of stay and
Denying Sanctions
ORDER
At issue here is the scope of the termination of
the automatic stay under 11 U.S.C. § 362(c)(3).
Debtors, Harold and Lorraine Wade, assert that stay
termination is limited to property of the debtors only,
and, as such, creditor Kreisler Law P.C. (“Kreisler”)
should be sanctioned under § 362(k) for obtaining
and recording a post-petition state court judgment
against their personal residence. Kreisler, on the
other hand, contends that the stay terminated as to
property of the debtors and property of the estate, and,
accordingly, seeks an order confirming the same
pursuant to § 362(j). Bankruptcy courts are equally
divided on this issue and the applicable statutory
provision is subject to various interpretations.
Nevertheless, for the reasons that follow, this court

App. 13
agrees with rulings from this district and others,
holding that the stay termination applies to debtors
personally as well as both their estate and non-estate
property.
Background
The relevant facts are largely undisputed.
Debtors had a prior joint Chapter 13 case,
13bk36999, that was voluntarily
dismissed on
November 20, 2014. Debtors subsequently filed this
Chapter 13 petition on January 15, 2015, listing
Kreisler as a creditor and identifying two service
addresses on Armitage Avenue and Milwaukee
Avenue in Chicago, Illinois, for notice purposes.
Because the 2013 case had been dismissed within a
year of the new filing, pursuant to 11 U.S.C. §
362(c)(3), the automatic stay in this case would
terminate after 30 days, unless Debtors sought and
obtained an extension prior to that expiration date.
Debtors timely filed a motion to extend the stay but
noticed the hearing for a day on which the assigned
judge was not sitting; therefore, it was stricken from
the call. Debtors did not re-notice the motion, and
the automatic stay under § 362(a) terminated on
February 14, 2015.
About two months later, in April 2015, Kreisler
obtained and immediately recorded a state court
judgment for nearly $30,000, on a pre-petition debt
owed by one of the Debtors. Kreisler claims they
were not aware of the 2015 bankruptcy filing until
October 2017, when Debtors’ real estate agent
reached out after preparing to sell the property and
discovering the judgment lien on the title. Kreisler
concedes that the Milwaukee Avenue address on the

App. 14
creditor mailing matrix is accurate and that they
received notice of the 2013 case dismissal in
November 2014. Debtors further point out that the
bankruptcy docket in this case reflects that their
petition, proposed plan, motion to extend the
automatic stay, and court-generated notices were all
mailed to Kreisler at the Milwaukee Avenue address
within the first few weeks of filing of this case.1
Kreisler initially agreed to vacate the postpetition judgment. But after further review, they
concluded that the stay had actually terminated prejudgment and their ensuing actions were proper.
Debtors sought sanctions against Kreisler for
violating the automatic stay. In response, Kreisler
moved to confirm that the automatic stay had, in
fact, terminated on February 14, 2015. Debtors filed
a response to Kreisler’s motion, contending that
since the stay remained intact as to property of the
estate, Kreisler was prohibited from pursuing any
collection activity against their home. Furthermore,
Debtors asserted that Kreisler had an affirmative
duty to stay and/or dismiss the state court
proceedings in light of the bankruptcy case. Although
the court afforded Kreisler an opportunity to file a
reply brief addressing these arguments, they did not
do so.
Kreisler
was
apparently
relying
on
representations in their earlier-filed motion to
confirm, that during the 30-day period of the
automatic stay, no action had been taken in state
The court takes judicial notice of the case docket and
pleadings and papers filed, including notices sent to creditors
by the Clerk of the Court. See Inskeep v. Grosso (In re Fin.
Partners), 116 B.R. 629, 635 (Bankr. N.D. Ill. 1989).

1

App. 15
court against the Debtors. However, the court
noticed that the public docket in the state court
proceeding indicated a prove-up hearing had been set
for February 10, 2015 (during the initial stay period),
and continued to February 24, 2015. Upon further
questioning on this point at a hearing on June 4,
2018, counsel for Kreisler indicated that she had
reviewed the state court file and did not believe that
they requested the continuance. In any event, the
state court docket reflects that the actual prove-up
hearing, judgment and collection activities all
occurred after February 14, 2015.
Discussion
The termination of stay provision
Bankruptcy Code provides that:

in

the

(3) [I]f a single or joint case is filed by or against a
debtor who is an individual in a case under chapter
7, 11, or 13, and if a single or joint case of the debtor
was pending within the preceding 1-year period but
was dismissed, other than a case refiled under a
chapter other than chapter 7 after dismissal under
section 707(b)—
(A) the stay under subsection (a) with respect to
any action taken with respect to a debt or
property securing such debt or with respect to
any lease shall terminate with respect to
the debtor on the 30th day after the filing of
the later case . . . .

App. 16
11 U.S.C. 362(c)(3)(A) (emphasis added). The
operative phrase which has caused a divide courts is
the phrase “with respect to the debtor.”
The majority view interprets the phrase to mean
that once the 30-day period lapses, the automatic
stay only terminates with respect to non-estate
property of the debtor, and remains in effect for
property of the estate. See e.g., In re Holcomb, 380
B.R. 813 (B.A.P. 10th Cir. 2008); In re Jumpp, 356
B.R. 789 (B.A.P. 1st Cir. 2006); In re Roach, 555 B.R.
840 (Bankr. M.D. Ala. 2016); In re Scott-Hood, 473
B.R. 133 (Bankr. W.D. Tex. 2012); In re Rinard, 451
B.R. 12 (C.D. Cal. 2011); In re Jones, 339 B.R. 360
(Bankr. E.D.N.C. 2006). Other courts, including
some in this district, have determined that the stay
terminates as to all of the debtor’s property, whether
or not it is part of the bankruptcy estate. See, e.g., In
re Reswick, 446 B.R. 362 (B.A.P. 9th Cir. 2011); In re
Smith, 573 B.R. 298 (Bankr. D. Maine 2017); In re
Bender, 562 B.R. 578 (E.D. N.Y. 2016); In re Furlong,
426 B.R. 303 (Bankr. C.D. Ill. 2010); In re Daniel,
404 B.R. 318 (Bankr. N.D. Ill. 2009); In re Curry, 362
B.R. 394 (Bankr. N.D. Ill. 2007). Debtors urge this
court to follow the majority viewpoint but after
reviewing the arguments on both sides, the court
finds the reasoning and statutory analysis adopted
by the “minority,” as set forth by Judge Wedoff in In
re Daniel, supra, more persuasive and consistent
with Congressional intent.
In re Daniel dissects the various interpretations
of the text. First, the phrase “with respect to the
debtor” could mean that the stay terminates as to the
debtor personally, while all of the debtor’s property,
both estate and non-estate, remains protected. 404
B.R. at 321– 22. In other words, the stay would be

App. 17
terminated as to in personam collection actions, but
not in rem collection actions. Id. at 322. However,
Judge Wedoff rejected that notion, citing the fact
that the statute also contains the phrase “with
respect to a debtor or property securing such debt,”
and reading that to mean the stay must necessarily
terminate as to some actions against property. Id.
A related approach involves treating the stay as
terminating with regard to debtor and non-estate
property. Id. at 323. Courts that favor this
interpretation find this is the “plain meaning” of the
statute, and most faithful to the bankruptcy policy of
“obtaining a maximum and equitable distribution for
creditors.” Holcomb, 380 B.R. at 816. Those decisions
point to language in § 362(a), which enumerates the
actions subject to the stay, to show that when
property of the estate is at issue, the word “estate” is
specifically used. Jumpp, 356 B.R. at 794. While this
is true, § 362(a) also specifically includes the phrases
“against the debtor” and “against property of the
debtor,” neither of which are used in § 362(c)(3)(A).
In fact, § 362(c)(3)(A) provides the only mention of
the phrase “with respect to the debtor” contained in
the section. Judge Wedoff points to this distinction as
the reason the “estate-property” interpretation is
untenable. Because the automatic stay applies to
actions “against the debtor,” “against property of the
debtor,” and “against property of the estate,” there is
no logical reason to read the phrase “with respect to
the debtor” as applying to only two out of the three
categories. Daniel, 404 B.R. at 323–24. Put another
way,
[S]ection 362(c)(3)(A) terminates the stay
under subsection (a). In general, the stay

App. 18
under subsection (a) halts three kinds of acts:
those directed against the debtor personally,
11 U.S.C. § 362(a)(1), (2), (6); those directed
against property of the estate, 11 U.S.C. §
362(a)(2), (3), (4); and those directed against
property of the debtor, 11 U.S.C. § 362(a)(5). A
reference to the entirety of ‘the stay under
subsection (a)’ would seem to extend to all
types of acts covered by the stay. Likewise, a
termination of the ‘stay under subsection (a)’
would seem to leave no part of the stay in
place.
Smith, 573 B.R. at 302.
Next, courts also compare the language used in §
362(c)(3)(A) to § 362(c)(4)(A)(i), since both provisions
address the automatic “stay under subsection (a)” for
repeat filers. See, e.g., In re Paschal, 337 B.R. 274,
278–79 (Bankr. E.D.N.C. 2006). Subsection
362(c)(3)(A), which applies to debtors with one prior
case dismissed within a year of filing, terminates the
stay “with respect to the debtor,” while subsection
362(c)(4)(A)(i), which applies to debtors with two or
more prior cases dismissed within a year of filing,
provides that “no stay shall go into effect upon the
filing of the later case.” That suggests the stay
terminating under § 362(c)(3)(A) must be more
narrow; otherwise Congress would have used the
same language in each subsection. Paschal, 337 B.R.
at 278–79. But that interpretation, according to
Judge Wedoff, would render § 362(c)(3)(B),
permitting parties in interest to seek an order
extending the automatic stay, almost meaningless.
Daniel, 404 B.R. at 323. The trustee and creditors of
the estate would never have a reason to seek an

App. 19
extension of the stay, as there would be no incentive
to protect the debtor from personal liability or
collection actions against non-estate property. Id.
Accord Reswick, 446 B.R. at 369 (“Property of the
estate would have to be subject to the stay
termination for any party other than the debtor to
have sufficient reason to file the motion.”).
Judge Wedoff also considered the argument that
the statute may be interpreted to exclude no
property whatsoever from termination of the stay, a
reading that would allow any action against a piece
of property securing a debt to proceed, and give
meaning to an extension of the stay. Id. at 324–25. It
also would not improperly distinguish between the
three types of actions described previously. Id. at
325. But that position was rejected as well, since it
renders the phrase “with respect to the debtor”
superfluous. Id.
Where Daniel ultimately lands is on the “spousalexclusion” interpretation, finding that the stay is
terminated for all collection actions, but only towards
a debtor or debtors who are subject to the
termination. Id. at 326. In cases where one spouse
had one or more prior bankruptcies, but the other
spouse had none, “the phrase ‘with respect to a
debtor’ can be read as referring to the serially-filing
spouse, making that debtor subject to collection
actions, both in personam and in rem (against estate
and non-estate property) while leaving the stay
completely in effect as to the newly-filing spouse’s
person and property.” Id. As another court
concluded, “[r]eading ‘with respect to the debtor’ . . .
as distinguishing between a debtor and the debtor’s
spouse is entirely consistent with references to ‘a
single or joint case’ at the beginning of section

App. 20
362(c)(3).” Reswick, 446 B.R. at 370. This court also
concurs that such a reading best gives meaning to
each phrase in the statute, without making
unsupported distinctions or surplusage. Accord
Reswick, 446 B.R. at 370 (“the phrase ‘with respect to
the debtor’ logically refers to whom (i.e. the serial
filing spouse) termination of the automatic stay
applies under section 362(c)(3)(A), not to which
property the termination applies. . . .”) (emphasis in
original).2
Similarly, in Curry, Judge Schmetterer points out
that the “spousal-exclusion” interpretation is
supported by the legislative history of the provision.
362 B.R. at 401–02. A House Report created at the
time of the 2005 amendments discussed provisions
aimed at combating abuse of the bankruptcy process.
H.R. Rep. No. 109-31(I), at 69–70. It states that
“[s]ection 302 of the Act amends section 362(c) of the
Bankruptcy Code to terminate the automatic
stay within 30 days in a chapter 7, 11, or 13 case
filed by or against an individual if such individual

Another equally plausible and persuasive approach rejects
this reading as well but reaches the same result as the court
does here. See Bender, 562 B.R. 580 (“The interpretation of §
362(c)(3)(A) that is most consistent with the principles of
statutory analysis that should not focus, as the majority and
minority do, on ‘property of the debtor’ or ‘property of the
estate’, neither of which phrases are used in the statute. . . .
The focus of this Court’s analysis is on specific actions with
respect to specific property, not the broader categories of
property of the estate or property of the debtor. In other words,
the stay is lifted ‘with respect to a debt or property securing
such debt’ and with respect to leases—regardless of whether the
property or the lease is property of the estate or property of the
debtor.) (emphasis in original)

2

App. 21
was a debtor in a previously dismissed case pending
within the preceding one-year period.” Id. at 69
(emphasis added). The phrase “to terminate the
automatic stay” as used in this report is unqualified,
and seemingly refers to all collection actions as
enumerated in 11 U.S.C. § 362(a). That reading gives
meaning to Congress’ intent to prevent bad faith
filings. In sum, if the stay terminates as to the
debtor personally and non-estate property only, the
subsection has no “teeth.” Compare Bender, 562 B.R.
at 580 (“In the case of a two time repeat filing, rather
than requiring the secured creditor to seek relief
under §362(d) the burden shifts to the debtor to
affirmatively seek to impose the stay under §
363(c)(3)(B), or the stay will be lifted on the 30th day
by operation of law as to real property foreclosures,
evictions and other actions against secured
collateral.”).
Accordingly, the court finds that Kreisler properly
pursued collection efforts against Debtors and their
property of the estate after the automatic stay
terminated on February 14, 2015. With respect to the
30-days when the automatic stay was in effect, the
court likewise concludes that sanctions against
Kreisler are not warranted here. The court agrees
with Debtors that knowledge of this bankruptcy case
should be imputed to Kreisler. There is no logical
reason why they would receive notices at the
Milwaukee Avenue address in the prior case but not
this one filed only a few months later. Nevertheless,
Debtors have not presented any evidence of
wrongdoing by Kreisler during the stay. Creditors
have no affirmative duty to dismiss a pending prepetition collection action whenever a bankruptcy

App. 22
case is filed. See In re Tires N Tracks, Inc., 498 B.R.
201, 205 (Bankr. N.D. Ill. 2013). They should
certainly inform that court or tribunal of the
automatic stay and avoid further collection or
enforcement activity against the debtor. But the
mere fact that the action remains pending does not
necessarily constitute “a commencement or
continuation of a judicial proceeding in violation of
Section 362(a)(1).” In re Kuzniewski, 508 B.R. 678,
687 (Bankr. N.D. Ill. 2014).
It is not entirely clear what happened at the court
hearing on February 10, 2015— when Debtors were
protected by the automatic stay—but it is undisputed
that the status quo was maintained until after the
stay terminated. Assuming Debtors were properly
served with notice of the post-petition state court
proceedings (and the court has no reason to think
otherwise), they could have reached out to Kreisler
(or asked their bankruptcy counsel to do so), or
appeared in state court to advise of the bankruptcy
filing, and potentially avoided this unfortunate
situation. Indeed, the state court action did not
proceed to a default judgment and recording until
April 2015—months later. But nothing here suggests
that while the stay was intact, Debtors were
negatively impacted. There may be instances “where
a creditor has set a process in motion pre-petition
that will have the continuing effect of collecting a
debt until terminated by such creditor” and,
consequently, “failure to act can constitute a
violation of the stay.” Id. The facts presented in this
case do not support that finding, though.

App. 23
Conclusion
Creditor Kreisler Law P.C.’s motion to confirm
the termination or absence of the automatic stay is
GRANTED. The automatic stay terminated on
February 14, 2015. Debtors’ Harold and Lorraine
Wade’s motion for sanctions is DENIED.
Dated:

June 6, 2018

/s/ Lashonda A. Hunt
LaShonda A. Hunt
United States Bankruptcy Judge

App. 24

__________
APPENDIX C
__________

Fed. R. Bankr. P. 8006(g)
Rule 8006. Certifying a Direct Appeal to the Court of
Appeals
(g) Proceeding in the Court of Appeals Following a
Certification. Within 30 days after the date the
certification becomes effective under subdivision (a),
a request for permission to take a direct appeal to
the court of appeals must be filed with the circuit
clerk in accordance with F.R.App.P. 6(c).
Fed. R. App. P. 5
Rule 5. Appeal by Permission
(a) PETITION FOR PERMISSION TO APPEAL.
(1) To request permission to appeal when an
appeal is within the court of appeals’ discretion, a
party must file a petition for permission to appeal.
The petition must be filed with the circuit clerk
with proof of service on all other parties to the
district-court action.
(2) The petition must be filed within the time
specified by the statute or rule authorizing the
appeal or, if no such time is specified, within the

App. 25
time provided by Rule 4(a) for filing a notice of
appeal.
(3) If a party cannot petition for appeal unless
the district court first enters an order granting
permission to do so or stating that the necessary
conditions are met, the district court may amend
its order, either on its own or in response to a
party's motion, to include the required permission
or statement. In that event, the time to petition
runs from entry of the amended order.
(b) CONTENTS OF THE PETITION; ANSWER OR CROSSPETITION; ORAL ARGUMENT.
(1) The petition must include the following:
(A) the facts necessary to understand the
question presented;
(B) the question itself;
(C) the relief sought;
(D) the reasons why the appeal should be
allowed and is authorized by a statute or rule;
and
(E) an attached copy of:
(i) the order, decree, or judgment
complained of and any related opinion or
memorandum, and
(ii) any order stating the district court's
permission to appeal or finding that the
necessary conditions are met.

App. 26
(2) A party may file an answer in opposition or a
cross-petition within 10 days after the petition is
served.
(3) The petition and answer will be submitted
without oral argument unless the court of appeals
orders otherwise.
(c) FORM OF PAPERS; NUMBER OF COPIES; LENGTH
LIMITS. All papers must conform to Rule 32(c)(2). An
original and 3 copies must be filed unless the court
requires a different number by local rule or by order
in a particular case. Except by the court’s
permission, and excluding the accompanying
documents required by Rule 5(b)(1)(E):
(1) a paper produced using a computer must not
exceed 5,200 words; and
(2) a handwritten or typewritten paper must not
exceed 20 pages.
(d) GRANT OF PERMISSION; FEES; COST BOND; FILING
THE RECORD.
(1) Within 14 days after the entry of the order
granting permission to appeal, the appellant must:
(A) pay the district clerk all required fees; and
(B) file a cost bond if required under Rule 7.
(2) A notice of appeal need not be filed. The date
when the order granting permission to appeal is
entered serves as the date of the notice of appeal
for calculating time under these rules.
(3) The district clerk must notify the circuit clerk
once the petitioner has paid the fees. Upon
receiving this notice, the circuit clerk must enter

App. 27
the appeal on the docket. The record must be
forwarded and filed in accordance with Rules 11
and 12(c).

App. 28

__________
APPENDIX D
__________
IN THE U.S. BANKRUPTCY COURT
FOR THE NORTHERN DISTIRCT OF
ILLINOIS
EASTERN DIVISION
Case no: 15 BK 01035
Judge Lashonda Hunt
[Filed June 11, 2018]
___________________________________
In Re:
Harold and Lorraine Wade
Debtors
Notice of Appeal
Harold and Lorraine Wade, by and through its
undersigned counsel, appeals under 28 U.S.C.
158(a)(1) and Federal Rule of Bankruptcy Procedure
8001, from the Order entered June 6, 2018, by the
Honorable Lashonda A. Hunt, United States
Bankruptcy Judge for the Northern District of
Illinois, [Dkt. No. 69]. The names of the parties to
the Order and the names, addresses, and telephone
numbers of their respective attorneys, are as follows:

App. 29

Harold and Lorraine Wade, Appellants. c/o Michael
A. Miller, The Semrad Law Firm, LLC, 20 S. Clark,
28th Floor, Chicago, IL 60603, 312-256-8728,
mmiller@semradlaw.com
Kreisler Law P.C., Appellee, c/o Melanie Pennycuff,
Kreisler Law Firm , P.C., 2846A North Milwaukee
Avenue,
Chicago,
IL
60618,
773-428-9998,
pennycuff@gmail.com
DATED: June 11, 2018
Respectfully Submitted,
Michael Miller
/s/ Michael Miller
The Semrad Law Firm, LLC
20 S. Clark, 28th Floor
Chicago, IL 60603
312-256-8728

App. 30

__________
APPENDIX E
__________
IN THE U.S. BANKRUPTCY COURT
FOR THE NORTHERN DISTIRCT OF
ILLINOIS
EASTERN DIVISION
Case no: 15 B 01035
Judge Lashonda Hunt
[Filed July 2, 2018]
___________________________________
In Re:
Harold and Lorraine Wade
Debtors
CERTFICATION FOR DIRECT APPEAL TO
COURT OF APPEALS
Pursuant to 28 U.S.C. §
158(B)(i) of the
Bankruptcy Code (“Code”) and Bankruptcy Rule
8006, and at the request of debtors Harold and
Lorraine Wade, the bankruptcy court certifies that
the appeal in this matters meets requirements of 28
U.S.C. §§ 158(d)(2)(A)(i) and (ii) for direct appeal to
the court of appeals.

App. 31
BACKGROUND
1. Harold and Lorraine Wade are debtors in a
chapter 13 case.
The case was filed in
January 2015. The Wades had an earlier
chapter 13 case that was dismissed in
November 2014.
2. Because the Wades had had a case dismissed
within a year, the automatic stay the current
case would terminate after 30 days unless
within the 30-day period the Wades obtained
an extension. See 11 U.S.C. § 362(c)(3). The
Wades timely filed a motion to extend the stay
but noticed the presentment on a day when
the assigned judge was not sitting; therefore,
the motion was not heard. The Wades did not
re-notice the motion. The automatic stay
under section 362(a) terminated in February
2015
3. Sometimes in late 2017, the Wades discovered
that a creditor had recorded a judgment
against their home in April 2015. They sought
sanctions against the creditor under section
362(k) of the Code for a violation of the stay.
The Wades concluded that the stay that was
terminated in February 2015 was limited to
property of the debtors, and therefore no
collection action could be taken against their
personal residence, which is property of the
estate under 11 U.S.C. § 541(a). The Wades
further argued that the creditor violated the
stay by failing to dismiss its state court
lawsuit (the lawsuit that produced the

App. 32
judgment) after receiving notice of their
bankruptcy case.
4. The creditor responded with its own motion to
confirm termination of the stay under section
362(j) of the Code, as to property of the debtors
and property of the estate. See 11 U.S.C. §
362(j).
In response to the claimed stay
violation, the creditor pointed out that no
actions to collect has been taken during the 30
days the stay was in effect; consequently,
there had been no stay violation.
5. The bankruptcy court ruled in factor of the
creditor, holding that the stay had terminated
as to the Wades, as well as to estate and nonestate property. The court also denied the
Wades’ request for sanctions, finding that the
mere fact the lawsuit remained pending, with
no action taken to pursue it, had not violated
the stay.
6. The Wades filed a timely notice of appeal from
the court’s order. They also filed a timely
request for certification of a direct appeal to
the court of appeals, to which no objection had
been raised.
DISCUSSION
7. The appeal satisfies three of the requirements
in 28 U.S.C. §§ 158(d)(2)(A) for direct appeal to
the court of appeals.

App. 33
8. The appeal raises two questions of law: (1)
under section 362(a)(3), does the stay
terminate only to property of a debtor, or more
broadly as to the debtor, the debtor’s property,
and property of the estate; (2) does the mere
pendency of a creditor’s collection action
violate the stay, warranting sanctions under
section 362(k).
9. First, the appeal involves questions of law on
which there are no controlling decisions of the
court of appeals for this circuit or the Supreme
Court of the United States. See 28 U.S.C. §§
158(d)(2)(A)(i).
10. Second, the appeal raises legal questions
regarding resolution of conflicting decisions.
See 28 U.S.C. §§ 158(d)(2)(A)(ii).
a. Section 362(c)(3)(A) provides that when
the 30-day period lapses, the stay “with
respect to any action taken with respect
to a debt or property securing such debt
or with respect to any lease shall
terminate with respect to the debtor.”
Some courts interpret that language to
mean that the stay terminates only
with respect to non-estate property, and
remains in effect for estate property.
See, e.g., In re Holcomb, 380 B.R. 813
(B.A.P. 10th Cir. 2008); In re Jumpp,
356 B.R. 789 (B.A.P. 1st Cir. 2006); In
re Roach, 555 B.R. 840 (Bankr. M.D.
Ala. 2016); In re Scott-Hood, 473 B.R.

App. 34
133 (Bankr. W.D. Tex. 2012); In re
Rinard, 451 B.R. 12 (C.D. Cal. 2011); In
re Jones, 339 B.R. 360 (Bankr. E.D.N.C.
2006).
b. Other courts interpret the statute to
mean that the stay terminates as to all
of the debtor’s property, whether or not
it is part of the estate. See e.g., In re
Reswick, 446 B.R. 362 (B.A.P. 9th Cir.
2011); In re Smith, 573 B.R. 298 (Bankr.
D. Maine 2017); In re Bender, 562 B.R.
578 (E.D. N.Y. 2016); In re Furlong, 426
B.R. 303 (Bankr. C.D. Ill. 2010); In re
Daniel, 404 B.R. 318 (Bankr. N.D. Ill.
2009); In re Curry, 362 B.R. 394 (Bankr.
N.D. Ill. 2017).
11. Regarding sanctions for failing to dismiss a
lawsuit, the dispute centers around section
362(a)(1), which prohibits the “continuation . .
. of a judicial, administrative, or other action
or proceeding against the debtor.”
Some
courts have declined to impose an affirmative
duty on creditors to dismiss a pending action
or request a stay and placement on a
bankruptcy calendar.
See, e.g., In re
Kuzniewski, 508 B.R. 678, 687 (Bankr. N.D.
Ill. 2014_; In re Tires n Tracks, Inc., 498 B.R.
201, 205 (Bankr. N.D. Ill. 2013). Other courts
have sanctioned creditors for not taking steps
to discontinue to halt proceedings. See, e.g.,
Eskanos & Adler, P.C. v. Leetien, 309 F.3d
1210, 1214-15 (9th Cir. 2002); Skillforce, Inc.
v. Hafer, 509 B.R. 523, 531-32 (E.D. Va. 2014).

App. 35

12. Third, this appeal involve matters of “public
importance”
for
purposes
of
section
158(d)(2)(A)(i), because the set of facts is
common. This district had a high volume of
chapter 13 filings, and many involve debtors
who have re-filed immediately after an earlier
case was dismissed. The bankruptcy court in
Chicago addresses dozen of “extend stay”
motions every week. Questions about the
extent to which the stay applies if such a
motion is denied and the stay is not extended,
as well as the action creditors can lawfully
take in other courts once a bankruptcy case
has been filed, have led to starkly different
results. A binding decision from the court of
appeals addressing these questions would be
beneficial.
DATED: July 2, 2019
/s/ Lashonda A. Hunt
LaShonda A. Hunt
United States Bankruptcy Judge

App. 36

__________
APPENDIX F
__________
IN THE UNITED STATES COURT OF
APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-2564
[Filed July 25, 2018]
Everett McKinley Dirksen United States Courthouse
Room 2722 – 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov
ORDER
July 25, 2018
Before:
Judge

FRANK H. EASTERBROOK, Circuit

__________________________________________
HAROLD WADE AND LORRAINE WADE )
Debtors – Appellants
)
)
v.
)
)
KREISLER LAW P.C.
)
Creditor – Appellee
)
__________________________________________)

App. 37
Originating Case Information:
Bankruptcy Case No: 15-01035
Northern District of Illinois, Eastern Division-BK
Bankruptcy Judge LaShonda A. Hunt
Upon consideration of the NOTICE OF APPEAL,
filed on July 18, 2018, by counsel for the appellants,
IT IS ORDERED that appellee Kreisler Law
shall respond to the appellants' filing by August 8,
2018.

App. 38

__________
APPENDIX G
__________
IN THE UNITED STATES COURT OF
APPEALS
FOR THE SEVENTH CIRCUIT
No. 18-2564
[Filed August 17, 2018]
Everett McKinley Dirksen United States Courthouse
Room 2722 – 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov
August 17, 2018
Before:
Judge

ORDER

FRANK H. EASTERBROOK, Circuit
ILANA DIAMOND ROVER, Circuit Judge
DAVID F. HAMILTON, Circuit Judge

App. 39

__________________________________________
HAROLD WADE AND LORRAINE WADE )
Debtors – Appellants
)
)
v.
)
)
KREISLER LAW P.C.
)
Creditor – Appellee
)
__________________________________________)
Originating Case Information:
Bankruptcy Case No: 15-01035
Northern District of Illinois, Eastern Division-BK
Bankruptcy Judge LaShonda A. Hunt
The following are before the court:
1. NOTICE OF APPEAL, filed on July 18, 2018, by
counsel for the appellants.
2. APPELLEE’S RESPONSE TO APPELLANT’S
NOTICE OF APPEAL FILED ON JULY 18, 2018
AND
APPELLEE’S
MOTION
FOR
AFFIRMATIVE RELIEF (DISMISSAL OF
APPEAL FOR LACK OF JURISDICTION) AS
PERMITTED
BY
FEDERAL
RULE
OF
APPELLATE PROCEDURE 27(a)(3)(B), filed on
August 8, 2018, by counsel for the appellee.
3. APPELLANTS’ REPLY TO APPELLEE’S
MOTION FOR AFFIRMATIVE RELIEF, filed on
August 9, 2018, by counsel for the appellants.

App. 40
The bankruptcy court has certified an order for
appeal under 28 U.S.C. §158(d)(2)(A), and a notice of
appeal to this court has been filed. The appeal
satisfies the statutory criteria, and the court has
decided to accept it for briefing and argument, but
there is a dispute about whether appellant has
satisfied the requirement of Bankr. R. 8006(g) that
the appellant file a petition for leave to appeal under
Fed. R. App. P. 5. Unless we treat the bankruptcy
judge’s opinion and certification as a Rule 5 petition,
that requirement has not been satisfied. Appellee
asks us to dismiss the appeal on that ground.
In re Turner, 574 F.3d 349 (7th Cir. 2009), holds
that the filing of a bankruptcy judge’s documents can
be treated as a petition for leave to appeal,
notwithstanding failure to comply with Rule 5.
Accord, Marshall v. Blake, 885 F.3d 1065, 1073 (7th
Cir. 2018). Both Turner and Marshall were decisions
of divided panels; one judge on each panel concluded
that the absence of a formal petition should have
prevented appellate review. (Section 158(d) does not
itself require a petition; that requirement rests on
rules rather than the statutory text.)
Recently the Supreme Court held in Hamer v.
Neighborhood Housing Services, 138 S. Ct. 13 (2017),
that, although the requirements in the rules of
federal procedure are not jurisdictional, they remain
mandatory and must be enforced when a litigant
requests their benefit. Keisler Law, the appellee, has
asked us to dismiss the appeal because appellant has
not complied with Appellate Rule 5 and Bankruptcy
Rule 8006(g). Turner was issued years before Hamer,
and Marshall, though it post-dates Hamer, does not
mention it. Our order accepting this appeal therefore
is provisional. The parties’ briefs must address not

App. 41
only the merits of the bankruptcy issue but also
whether Turner and Marshall should be overruled in
light of Hamer.

Briefing in the appeal shall proceed as follows:
1. The brief and required short appendix of the
appellants are due by September 17, 2018.
2. The brief of the appellee is due by October 16,
2018.
3. The reply brief of the appellant, if any, is due by
October 30, 2018.

